State of Louisiana
DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
PO. BOX 94005
BATON ROUGE
70804-9005

 

andry
Attorney General

 

March 12, 2020

By electronic submission and FedEx

The Honorable Scott S. Harris

Clerk of Court, Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

Re: William Pesnell, et al., v. Jill Sessions, et al. (19-874)

Dear Mr. Harris:

This Court has requested a response from the Respondents, Jill Sessions, et al, in this matter. The
brief in opposition is currently due on March 19, 2020. The State requests an extension of thirty
days in which to file its brief in opposition.

The new due date would be April 18, 2020.

JEFF LANDRY
ATTORNEY GENERAL

Elizabeth B. Murrill
Solicitor General

 

ce: Billy R. Pesnell
